IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11406-D

RUTH ELLEN REEVES,
Plaintiff - Appellant,
versus
SECRETARY OF DEFENSE,
MONGELL,
CEO FWB Medical Center,
Defendants - Appellees.

Appeal from the United States District Court
for the Northern District of Florida
ENTRY OF DISMISSAL: Pursuant to the 11th Cir.R.42-l(b), this appeal is DISMISSED for
want of prosecution because the appellant Ruth Ellen Reeves has failed to pay the filing and
docketing fees to the district court within the time fixed by the rules., effective August 05,2020.
DAVID J. SMITH
Clerk of Court of the United States Court
of Appeals for the Eleventh Circuit
by: Scott O'Neal, D, Deputy Clerk
FOR THE COURT - BY DIRECTION

Case 3:20-cv-03658-RV-HTC Document 8 Filed 03/30/20 Page lot 2
Page 1 of2

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
PENSACOLA DIVISION
RUTH ELLEN REEVES,
Plaintiff,
v.

Case No. 3:20cv3658-RV-HTC

MARK T. ESPER, and
MONGELL
Defendants.

ORDER
This cause comes on for consideration upon the Magistrate Judge’s Report
and Recommendation dated March 11, 2020. (Doc. 5). The parties have been
furnished a copy of the Report and Recommendation and have been afforded an
opportunity to file objections pursuant to Title 28, United States Code, Section
636(b)(1). I have made a de novo determination of Plaintiffs objections. (Docs. 6,
7).

Having considered the Report and Recommendation, and Plaintiffs
objections, I have determined that the Report and Recommendation should be
adopted.

Case 3:20-cv-03658-RV-HTC Document 8 Filed 03/30/20 Page 2 of 2
Page 2 of 2

Accordingly, it is now ORDERED as follows:
1.

The Magistrate Judge’s Report and Recommendation is adopted and

incorporated by reference in this order.
2.

This case is DISMISSED WITHOUT PREJUDICE pursuant to 28

U.S.C. § 1915(e)(2)(B).
3.

The clerk is directed to close the file.

DONE AND ORDERED this 30th day of March, 2020.

/
/s/ Roger Vinson
ROGER VINSON
SENIOR UNITED STATES DISTRICT JUDGE

Case No. 3:20cv3658-RV-HTC

Case 3:20-cv-03658-RV-HTC Documents Filed 03/11/20 Page 1 of 10
Page 1 of 10

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
PENSACOLA DIVISION
RUTH ELLEN REEVES,
Plaintiff,
Case No. 3:20cv3658-RV-HTC

v.

MARK T ESPER and
MONGELL,
Defendants.

REPORT AND RECOMMENDATION
Plaintiff, Ruth Ellen Reeves, proceeding pro se and in forma pauperis,
initiated this action by filing a civil complaint purporting to state claims under
Bivens1 and 42 U.S.C. § 1983. ECF Doc. 1. The matter was referred to the
undersigned Magistrate Judge for preliminary screening and report and
recommendation pursuant to 28 U.S.C. § 636 and N.D. Fla. Loc. R. 72.2(B). Upon
screening the complaint pursuant to 28 U.S.C. § 1915(e)(2), and for the reasons set
forth herein, the undersigned recommends that Plaintiffs complaint be DISMISSED
prior to service because she has failed to state a cause of action against the named
defendants and allowing Plaintiff to amend her complaint would be futile.

See Bivens v. Six Unknown Named Agents of Federal Bureau ofNarcotics, 403 U.S. 388 (1971).

Case 3:20-cv-03658-RV-HTC Document 5 Filed 03/11/20 Page 2 of 10

Page 2 of 10
I.

THE COMPLAINT
Plaintiffs complaint names two (2) defendants: Mark T. Esper, United States

Secretary of Defense, and Mr. Mongell, CEO of Fort Walton Beach Medical Center
(“FWBMC”). ECF Doc. 1 at 1, 3. The complaint sets forth the factual allegations
that follow, the truth of which is accepted for purposes of this order and report and
recommendation:
In February of 2006, Plaintiff was “illegally Baker Acted for trying to save
[her] life when [she] was in fact poisoned.” Id. at 4. At that time, she was sent from
Eglin Air Force Base to FWBMC, where she was “kept for an extended period of
time due to [her] religious beliefs.” Id. at 4-5.
In 2014, after an unidentified accident, Plaintiff remembered that, while at
FWBMC in 2006, she “was forced to take dangerous medication and forced to
endure electronic shock treatments.” Id. at 5. Plaintiffs daughter was offered an
early release from the Army to have Plaintiff permanently institutionalized, and
Plaintiff was “forced out of the Teaching Degree that [she] was 6 weeks from
receiving.” Id.

The military intervened in the accident settlement, which left

Plaintiff without money and unable to work.
Finally, in August of 2018, “two family members confirmed that due to the
electrical shocks, [Plaintiff] was sent to the morgue and later pulled off [her] own
toe tag.” Id.

Case No. 3:20cv3658-RV-HTC

Case 3:20-cv-03658-RV-HTC Documents Filed 03/11/20 Page 3 of 10
Page 3 of 10

Based on the foregoing, Plaintiff alleges she has been denied “every
constitutional right.” Id. As relief, she seeks $777,000,000 from the United States
military, $777,000,000 from FWBMC, and for a non-party individual named Dr.
Patricia Harrison to be removed from her profession. Plaintiff also states that she
“want[s] to make this treatment STOP for everyone.” Id. at 6.
II.

LEGAL STANDARD
Because Plaintiff is proceeding in forma pauperis, the Court must dismiss her

complaint if it determines it is “(i) frivolous or malicious; (ii) fails to state a claim
on which relief may be granted; or (iii) seeks monetary relief against a defendant
who is immune from such relief.” 28 U.S.C. § 1915(e)(2)(B). The Court must read
Plaintiffs pro se allegations in a liberal fashion. See Haines v. Kerner, 404 U.S.
519, 520-21 (1972). If the complaint is deficient, the court is required to dismiss the
suit sua sponte. See Cooley v. Ocwen Loan Servicing, LLC, 729 F. App’x 677, 680
(11th Cir. 2018). “A lawsuit is frivolous if the plaintiffs realistic chances of ultimate
success are slight.” Id. at 681 (quoting Clark v. Ga. Pardons & Paroles Bd., 915
F.2d 636, 639 (11th Cir. 1990)).
Dismissals for failure to state a claim are governed by the same standard as
Federal Rule of Civil Procedure 12(b)(6). See Mitchell v. Farcass, 112 F.3d 1483,
1485 (11th Cir. 1997). To survive dismissal under this standard, a complaint must
contain sufficient factual matter, accepted as true, to “state a claim to relief that is

Case No. 3:20cv3658-RV-HTC

Case 3:20-cv-03658-RV-HTC Document 5 Filed 03/11/20 Page 4 of 10
Page 4 of 10

plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 129 (2009) (citing Bell
Atlantic Corp. v. Twombly, 550 U.S. 544, 570 (2007)). “A claim has facial
plausibility when the plaintiff pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable for the misconduct alleged.” Id.
III.

DISCUSSION
A.

Plaintiff Has Stated No Cognizable Claims Against The Defendants

Plaintiff has failed to state a valid claim against either of the two (2) named
Defendants. First, she has alleged no facts demonstrating any wrongdoing by
Defendants. Second, Defendant Mongell is neither a federal official nor a state actor.
1.

Plaintiff alleges no facts that demonstrate Defendants Esper and
Mongell personally participated in any alleged constitutional
violations or are liable under a theory of supervisory liability.

Plaintiff does not allege Defendants Esper or Mongell were present at the time
of the subject incident, nor does she reference them anywhere in her complaint.
Indeed, the only person briefly referenced in Plaintiffs complaint is Dr. Patricia
Harrison, who is not a named defendant in this action. Thus, because Plaintiff has
not alleged any facts showing that Defendants Esper or Mongell engaged in any
wrongful conduct, Plaintiff has no claim against them under either Bivens or § 1983.
Additionally, to the extent Plaintiff seeks to hold Defendants liable under a
theory of supervisory liability, her claim fails for several reasons. “Supervisory
liability occurs either when the supervisor personally participates in the alleged

Case No. 3:20cv3658-RV-HTC

Case 3:20-cv-03658-RV-HTC Document 5 Filed 03/11/20 Page 5 of 10
Page 5 of 10

constitutional violation or when there is a causal connection between actions of the
supervising official and the alleged constitutional violation.” Gonzalez v. Reno, 325
F.3d 1228, 1234 (11th Cir. 2003) (citations omitted) (emphasis added). A causal
connection is established “when a history of widespread abuse puts the responsible
supervisor on notice of the need to correct the alleged deprivation, and he fails to do
so,” or when the supervisor’s unlawful “custom or policy ... resulted in deliberate
indifference to constitutional rights.” Id. at 1234-35 (citations omitted). It can also
be established by showing that the supervisor directed the subordinates to act
unlawfully or knew that the subordinates would act unlawfully and failed to stop
them from doing so. See id.
As addressed above, Plaintiffs complaint does not contain any factual
allegations against Defendants Esper and Mongell, much less any that could be
reasonably read as showing they personally participated in a constitutional violation.
Moreover, Plaintiff fails to demonstrate a causal connection between Defendants’
actions and the alleged constitutional violations, as she alleges no facts that
demonstrate (1) a history of widespread abuse; (2) an unlawful custom or policy
promulgated or enforced by Defendants; (3) that Defendants directed any persons to
act unlawfully; or (4) that Defendants knew any persons would act unlawfully and
failed to intervene.

Case No. 3:20cv3658-RV-HTC

Case 3:20-cv-03658-RV-HTC Documents Filed 03/11/20 Page 6 of 10
Page 6 of 10

2.

Defendant Mongell is neither a federal official nor a state actor and
thus cannot be held liable under Bivens or $ 1983.

Additionally, Defendant Mongell is neither a federal nor a state official
subject to liability under Bivens or § 1983. FWBMC is a privately-owned hospital
affiliated with HCA Healthcare, a private healthcare company, and Defendant
Mongell is its CEO.2 Thus, he is clearly a private actor.
Bivens permits a plaintiff to sue federal officials, not private actors, for
violations of certain Constitutional rights. See Bivens, 403 U.S. 388. The Supreme
Court has clarified that the goal of Bivens is to deter “individual federal officers
committing constitutional violations.”

Correctional Services Corporation v.

Malesko, 534 U.S. 61 (2001) (emphasis added) (holding that a Bivens action was not
the appropriate remedy against a private entity operating a halfway house under
contract with the Bureau of Prisons). Following that reasoning, the Eleventh Circuit
has declined to extend Bivens to private actors where the plaintiff could instead avail
himself to adequate state remedies. See Alba v. Montford, 517 F.3d 1249, 1254-55
(11th Cir. 2008) (holding that a Bivens action was not the appropriate remedy against
a private medical care facility for inadequate medical care).
Under § 1983, a plaintiff must show, inter alia, that the alleged misconduct
was committed by a person acting under color of state law. Parratt v. Taylor, 451

2 See https://fwbmc.com/about/.
Case No. 3:20cv3658-RV-HTC

Case 3:20-cv-03658-RV-HTC Document 5 Filed 03/11/20 Page 7 of 10
Page 7 of 10

U.S. 527, 535 (1981), overruled on other grounds; Daniel v. Williams, 474 U.S. 327
(1986); Griffin v. City ofOpa-Locka, 261 F.3d 1295, 1303 (11th Cir. 2001). Private
parties may be considered state actors acting under color of state law only if one of
the following three tests is met: “(1) the State has coerced or at least significantly
encouraged the action alleged to violate the Constitution (‘State compulsion test’);
(2) the private parties performed a public function that was traditionally the
exclusive prerogative of the State (‘public function test’); or (3) the State had so far
insinuated itself into a position of interdependence with the [private parties] that it
was a joint participant in the enterprise (‘nexus/joint action test’).” Rayburn ex rel.
Rayburn v. Hogue, 241 F.3d 1341, 1347 (11th Cir. 2001) (citations and internal
quotations omitted). “Only in rare circumstances” will a private party be viewed as
a state actor for § 1983 purposes. Harvey v. Harvey, 949 F.2d 1127, 1130 (11th Cir.
1992).
Plaintiff could have availed herself to adequate state remedies, as she could
have brought a claim against Defendant Mongell under Florida tort law. Thus, a
Bivens action is not the appropriate remedy for pursuing a claim against Defendant
Mongell. Moreover, Plaintiff alleges no facts which implicate any of the three (3)
tests set forth in Rayburn such that Defendant Mongell could be considered a state
actor.

Indeed, as discussed above, Plaintiff alleges no facts about Defendant

Case No. 3:20cv3658-RV-HTC

Case 3:20-cv-03658-RV-HTC Document 5 Filed 03/11/20 Page 8 of 10
Page 8 of 10

Mongell at all. Thus, Defendant Mongell cannot be sued under either Bivens or
§ 1983 because he was not acting under color of either federal or state law.
B.

Statute Of Limitations

As an additional matter, any claims arising out of the incidents forming the
basis of this suit under both Bivens and 42 U.S.C. § 1983 are time-barred by the
applicable statute of limitations. Thus, allowing Plaintiff to amend her complaint
would be futile. Instead, where “it appear[s] beyond a doubt from the complaint
itself that [the indigent plaintiff] can prove no set of facts which would avoid a statute
of limitations bar,” the case should be dismissed prior to service. See Burt v. Martin,
193 F. App’x 829, 830 (11th Cir. 2006) (dismissing prisoner’s action pre-service as
barred by the statute of limitations) (quoting Hughes v. Lott, 350 F.3d 1157, 1163
(11th Cir. 2003)); Cooley, 729 F. App’x at 681 (affirming dismissal of indigent
plaintiff s claim under frivolity analysis as barred by the statute of limitations)
The Eleventh Circuit has consistently held that Florida's 4-year statute of
limitations, Fla. Stat. § 95.11(3), for personal injury actions governs federal § 1983
claims brought in Florida. City ofHialeah, Fla. v. Rojas, 311 F.3d 1096, 1103 (11th
Cir. 2002) (“[s]ection 1983 claims are governed by the forum state's residual
personal injury statute of limitations, which in Florida is four years”); Omar v.
Lindsey, 334 F.3d 1246, 1251 (11th Cir. 2003) (per curiam) ( “[t]he applicable statute
of limitations in a § 1983 lawsuit is the four-year Florida state statute of limitations

Case No. 3:20cv3658-RV-HTC

Case 3:20-cv-03658-RV-HTC Document 5 Filed 03/11/20 Page 9 of 10
Page 9 of 10

for personal injuries”); Chappell v. Rich, 340 F.3d 1279, 1283 (11th Cir. 2003)
(“Florida's four-year statute of limitations applies to such claims of deprivation of
rights under 42 U.S.C. [§] 1983”). The same 4-year statute of limitations also applies
to claims under Bivens. See Rager v. Augustine, 760 F. App’x 947, 950 (11th Cir.
2019) (citing Uboh v. Reno, 141 F.3d 1000,1002 (11th Cir. 1998) (noting that federal
district courts apply their forum state’s personal injury statute of limitations to both
Bivens and 42 U.S.C. § 1983 actions) and Chappell, 340 F.3d at 1283).
The statute of limitations begins to run when the plaintiff either knows or
should know (1) that she has suffered the injury that forms the basis of her complaint;
and (2) who has inflicted the injury. See Chappell, 340 F.3d at 1283. In her
complaint, Plaintiff alleges the events that form the basis of her action - namely, that
she was illegally Baker Acted and sent to FWBMC, where she was forced to take
dangerous medications and endure electric shock treatments - occurred in February
of 2006. She alleges she remembered what happened to her at FWBMC sometime
in 2014.
Additionally, the complaint does not disclose any facts that would support
tolling the statute of limitations. See Joseph v. State Mut. Life Ins. Co. ofAmerica,
196 F. App’x 760, 761 (11th Cir. 2006) (affirming dismissal upon screening because,
“[i]n the absence of an applicable toll,” plaintiffs claim was time-barred). Thus,
even assuming the statute of limitations began to run on all of Plaintiffs claims in

Case No. 3:20cv3658-RV-HTC

Case 3:20-cv-03658-RV-HTC Document 5 Filed 03/11/20 Page 10 of 10
Page 10 of 10

2014, rather than in 2006, the statute of limitations expired as to Plaintiffs claims
four (4) years later, in 2018. However, Plaintiff did not initiate this action until
February 24, 2020, more than a year after the statute of limitations expired.
IV.

CONCLUSION
Accordingly, it is respectfully RECOMMENDED that:
1.

Plaintiffs complaint (ECF Doc. 1) be DISMISSED under 28 U.S.C.

§ 1915(e)(2)(B).
2.

The clerk be directed to close the file.

DONE AND ORDERED this 11th day of March, 2020.

HOPE THAI CANNON
UNITED STATES MAGISTRATE JUDGE
NOTICE TO THE PARTIES
Objections to these proposed findings and recommendations may be filed within 14
days after being served a copy thereof. Any different deadline that may appear on
the electronic docket is for the court’s internal use only and does not control. A copy
of objections shall be served upon the magistrate judge and all other parties. A party
failing to object to a magistrate judge's findings or recommendations contained in a
report and recommendation in accordance with the provisions of 28 U.S.C. §
636(b)(1) waives the right to challenge on appeal the district court's order based on
unobjected-to factual and legal conclusions. See 11th Cir. R. 3-1; 28 U.S.C. § 636.

Case No. 3:20cv3658-RV-HTC

